j

No. 21-

3ftt Wtye
Supreme Court of tfje fHmteb States!

Supreme Court, U S.
FILED

MAR 0 5 2021
Genet McCann,

OFFICE OF THE CLERK

Petitioner,
v.
The Supreme Court of the State of Montana
Respondent.
On Petition for Writ of Certiorari to the Supreme
Court of the State of Montana
PETITION FOR WRIT OF CERTIORARI
Genet McCann
P.O. Box 160492
Big Sky, MT 59716
(406) 220-0352
62BigSky@gmail.com
Petitioner Pro Se
March 5, 2021

QUESTIONS PRESENTED
1. Is the Due Process Clause of the Fourteenth
Amendment violated where a judge persisted in non­
disclosure and presided over the final 2019 hearing—
after being presented in court with an oral motion to
recuse based upon newly discovered, indisputable
evidence that he independently investigated material
facts and suborned false testimony, in collusion with
his undisclosed life-long close friend in an earlier
2015 Rule 11 hearing, in which he initiated and
presided over to suppress the truth of Petitioner’s
2015 recusal allegations and impose a pre-filing
requirement that intentionally impeded and block
Petitioner’s 1st and 14th Amendment rights to
petition and participate in the six year proceeding as
natural daughter and successor beneficiary of her
mother’s guardianship and conservatorship estate,
and again suborned the same false testimony as
adverse witness in an attorney disciplinary
proceedings in 2018 to have her disbarred—to
ultimately rush the approval of his undisclosed
friend’s accounting, block Petitioner’s personal
liability claims against the misappropriation of over
$20 million in estate assets, transfer the remaining
estate to the other conservator, as the ex parte
appointed personal representative of Anne Marie’s
intestate estate in disregard of her properly executed
written Last Will & Testament, and finally to serve
upon Petitioner a new 2019 ex parte Rule 11 order,
without notice or opportunity, that blocks
Petitioner’s participation in the probate of her
mother’s estate before another sitting judge.

PARTIES NOT MENTIONED IN CAPTION
Douglas J. Wold and Paul McCann, Jr.

PROCEEDINGS DIRECTLY RELATED
The February 28, 2014 Order Nomina ting Doug
Wold, In reA.M.M., in the Twentieth Judicial
District, Lake County, for the State of Montana (DG
14-2/14-3).
March 14, 2014 FOF/COL/Order, In re
in
the Twentieth Judicial District, Lake County, for the
State of Montana (DG 14-2/14-3).
The June 24, 2015 Rule 11 Order, In reA.M.M., in
the Twentieth Judicial District, Lake County, for the
State of Montana (DG 14-2/14-3).
In re Genet McCann, ODC No. 15'078/PR 16-0635,
before the Commission On Practice in ODC No, 15078 and the Montana Supreme Court in PR 16-0634
(June 5, 2018).
McCann v. Taleff, etal, before the U.S. District
Court of the State of Montana, Great Falls Division,
CV 18-115-BMM-JTJ (July 23, 2019), appealed
denied in 19-35730, before the Ninth Circuit Court of
Appeals, (9th Cir., Dec. 11, 2020), pending anticipated
appeal before U.S. Supreme Court, (due May 10,
2021).

2

McCann v. The Montana Supreme Court, before the
U.S. District Court of the State of Montana, Helena
Division, CV-18-42-H-SEH (Apr. 16, 2018)
In the Estate ofAnne Marie McCann, (DP 19-47), in
the Twentieth Judicial District Court, Lake County,
in the State of Montana, (pending).

TABLE OF CONTENTS
Questions Presented

1

Table of Authorities

8

List of All Parities to DA 20-0021

2

Proceedings Directly Related

2

Petition for Writ of Certiorari

11

Opinion And Order Below

11

Jurisdiction Statement

14

Constitutional Provisions Involved

15

Statement of the Case

15

A.

Introduction
3

15

B.

Trial and Direct Appeal
Proceedings....................

Reasons For Granting the Petition

I.

16

35

THIS COURT SHOULD GRANT
CERTIORARI TO REVIEW AND
REVERSE JUDGE MANLEYS
FAILURE TO DISCLOSE AND
RECUSE AND VACATE HIS
ORDERS
35
A.

This Case Exposes A
Pattern of Violations
Against the Due Process
Clause of the Fourteenth
Amendment To Overlook
Indisputable Evidence in
the Record, Timely
Preserved and Asserted On
Appeal, To Affirm A Judge
Persisted Non-Disclosure
of Disqualifying Facts
After Presented in Open
Court with the New
Indisputable Evidence
That He Independently
Investigated Material
Facts and Suborned False
Testimony, In Collusion
with His Undisclosed LifeLong Close Friend, in an
Earlier 2015 Rule 11
4

Hearing—He Initiated, As
Accuser, and, Adjudged
Guilty, as Presiding
Judge—And Again At an
Attorney Disciplinary
Proceedings in 2018, to
Suppress the Truth of
Petitioner’s 2015 Recusal
Allegations and Block
Petitioner, throughout the
Six Year Proceeding with
His Fraudulently Obtained
Rule 11 Pre-Filing Order—
And Continue To Preside
Over and Rush the
Approval of the
Conservators’ Accounting
of over $20 Million in
Diminished Assets,
Transfer the Rest of the
Estate to the Other
Conservator, as the Ex
Parte Appointed Personal
Representative of Ann
Marie’s Intestate Estate, in
Knowing Disregard of
Anne Marie’s Properly
Executed Written Last
Will & Testament, to Keep
Concealed the
Misappropriation of over
$20 Million Estate Assets
under Judge Manley’s
Oversight.
15

5

B.

The Failure to Disclose
Disqualifying Facts that
Establish Unconstitutional
Failure to Recuse is a
Structural Error that
Requires Vacation of all
prior judgment and orders.
16

Conclusion

49

Cert, of Proof of Service

51

Cert, of Compliance.....

52

Appendix
Ap-1 Oct. 23, 2019 Tr„ pp. 1-2; 7-15..

Ap-1

Ap-2 Nov. 13, 2019 Aff. to Disqualify

Ap-2

Ap-3 Nov. 21, 2019 ExParte Rule 11 Order.Ap3

Ap-4 Nov. 26, 2019 ExParte Rule 11 Order. Ap4
Ap-5 Nov. 27, 2019 Tr., pp. 1-13; ............. Ap-5
Ap-6 Nov. 27, 2019 Doug Wold’s Proposed
Order, signedby Judge Manley (Final
Judgment) in DG 14-2/14-3
Ap-6
Ap-7 Op. Br. in re A.M.M., IV. (DA 20-21) Ap-7
Ap-8 In re A.M.M., 2020 MT 257N........... Ap-8
Ap-9 1.7.2014 A.M.M.’s Attorney Letter to
A.M.M................................................. Ap-9
Ap-10 A.M.M.’s Affidavit of Nomination . Ap-10

6

Ap-11 Feb. 28, 2014 Order, Noticing Judge
Manley’s Nomination
Ap-11
Ap-12 Timothy McCann’s Sept/2014 Affidavit
to Disqualify
Apl2
Ap-13 March 6, 2014 Tr. in DG 14-2/14-3, pp.
145-146
Ap-13
Ap-14 March 14, 2014 FOF/COL/Order ..Ap-14
Ap-15 March 5, 2014 Tr. in DG 14-2/14-3,
pp.15-30
Ap-15
Ap-16 Chief Justice Order on Tim’s Affidavit
to Disqualify
Ap-16
Ap-17 March 2, 2014 Motion to Recuse ...Ap-17
Ap-18 March 16, 2015 Rule 11 Notice.... Ap-18
Ap*19 May 22, 2015 Motion to Recuse, Ex.
MTLA Article
Ap-19
Ap-20 May 22, 2015 Transcripts, p. 34 ... Ap-20
Ap-21 Case Register Report in DG 14-2/14-3
........................................................... Ap-21
Ap-22 August/September 2014 Hearing
Transcript ..................................... Ap-22
Ap-23 June 24, 2015 Rule 11 Judgment in DG
14-2/14-3
Ap-23
Ap-24 Order Striking Pleadings/Order to Show
Cause
Ap-24
Ap-25 Tina Morin’s Affidavit................. Ap-25
Ap-26 Op. Br. In re A.M.M., II. (DA 150141),pp. 36-38.............................. Ap-26
7

Ap-27 March 23, 2018 Tr„ ODC 15'078/PR 160635, pp.78-79; pp.88-89
Ap-27

TABLE OF AUTHORITIES
U. S. Constitution
Const. Amend. I

1,15,35,43,49

Const. Amend. XIV.

1,15,35,43,49

Federal Statutes
28 U.S.C. § 1257(a)

14

18 U.S.C. §1503....

33

Federal Cases
Aetna Life Ins. Co. v. Lavoie, 475 U.S. 813, 823-825,
106 S.Ct. 1580, 89 L.Ed.2d 823 (1986).
38,39
Barrows v. Hunton, 99 U.S. 80 (1878)

49

Caperton v. A. I Massey Coal Co., 556 U.S. 868, 129
S.Ct. 2252, 173 L.Ed.2d 1208 (2009)
Passim
Cheney v. U.S. District Court for the District of
Columbia, 541 U.S. 913 (2004)
36,42,46
Commonwealth Coatings Corp. v. Continental Cas.
Co., 393 U.S. 145 (1968) ........................................... 46
McCann v. The Montana Supreme Court, before the
U.S. District Court of the State of Montana, Helena
Division, CV-18-42-H-SEH (Apr. 16, 2018)
3,27
HazelAtlas Glass Co. v. Hartford-Empire Co., 322
U.S. 238, 64 S.Ct. 997, 88 L.Ed. 1250 (1944)......... 49
In re Murchison, 49 U.S. 133, 75 S.Ct. 623 (1955)
8

Passim
Lacraze v. Louisiana, 138 S.Ct. 60 (2017)

42,44

Liljeberg v. Health Services Acquisition Corp., 486
U.S. 847, 108 S.Ct. 2194 (1988)
46,48
Marshall v. Jerrico, Inc., 446 U.S. 238, 242 (1980) .38
Price Bros. Co. v. Phila. Gear Co., 629 F.2d 444, 447
(6th Cir. 1980)..................
40

, 137 S.Ct. 905, 197

Rippo v. Baker, 580 U.S.
L.Ed.2d 167 (2017) ........

42

Turney v. Ohio, 212, U.S. 510, 535, 47 S.Ct. 437, 71
L.Ed. 749 (1927) ............................................................ 41
United States v. Sierra Pac. Indus., Inc., 862 F.3d
1157, 1167-8 (9th Cir. 2017), cert, denied, 138 S. Ct.
2675 (2018)
45,49
Ward v. Vill. ofMonroeville, 409 U.S. 57, 60 (1972)
24,39
Williams v. Pennsylvania, 136 S. Ct. 1899, 1905
(2016)
22,28,41,44,48
Withrow v. Larkin, 421 U.S. 35, 47, 95 S.Ct. 1456, 43
L.Ed.2d 712 (1975)
39
Montana Statutes and Rules
Mont. Code Ann. §3-1-805....

12,18,20,26,30

Mont. Code Anno. §72-5-313

19

Mont. Code Anno. §72-5-315

18

Mont. Code Anno. §72-5-410

17

Mont. Code Anno. §72-5-436

13

9

Mont. Code Anno. §72-5-438

30

Montana Cases
Draggin’ YCattle Co. v. Addink, 2016 MT 98 (Mont.
2016)........................................................................... 26
In re Genet McCann, ODC No. 15'078/PR 16-0635,
before the Commission On Practice in ODC No, 15078 and the Montana Supreme Court in PR 16-0634
(June 5, 2018)
8,27,33
In reA.M.M, 2015 MT 250, 380 Mont. 451, 356 P.3d
474 (2015XA.M.M., I.)
2,6,18
In re A.M.M., 2016 MT 213, 384 Mont. 413, 380 P.3d
736 (2016XA.M.M., II.)
2,6,7,26,28
In re A.M.M., 2020 MT 257N, 472 P.3d 1204
(2020XA.M.M., IV).......................................... 2,6,14,34
Other State Law Authority
Fletcher v. Comm’n on Jud. Performance, 968 P.2d
958 (Cal. 1998)
In re Bissell, 429 S.E.2d 731 (N.C. 1993)................. 22
Spruance v. Comm’n on Jud. Qualifications, 532 P.2d
1209 (Cal. 1975).......................................................... 22
Williams v. Reed, 6 S.W.3d 916 (Mo. Ct. App. 1999)
22

Other Sources
The Federalist No. 10 (James Madison) (Clinton
Rossiter ed., 1999) .................................................. 45

10

Jona Goldschmidt & Jeffrey M. Shaman, judicial
Disqualification•' What Do Judges Think?, 80
JUDICATURE Sept.—Oct. 1995............................ 36
Jeremy M. Miller, Judicial Recusal and
Disqualification'- The Need for a Per Se Rule on
Friendship (Not Acquaintance), Pepperdine Law
Review vol.33, Is.3, 4-20-2006................................. 36

PETITION FOR WRIT OF CERTIORARI
Petitioner, Genet McCann, respectfully prays
for a writ of certiorari to issue to review and reverse
the judgment of the Montana Supreme Court entered
into on October 6, 2020 that affirmed the state
District Court’s refusal to disclose and disqualify and
vacate all orders and judgments upon being
presented with the indisputable evidence in the
public record that he intentionally suborned false
testimony twice, independently investigated material
facts to preside over and adjudge Petitioner guilty of
Rule 11 charges he initiated to knowingly suppress
the truth of Petitioner’s recusal allegations that due
process mandated disclosure and disqualification
from day one of a six year long proceeding in DG 142/14-3.

OPINION AND ORDERS BELOW
On October 23, 2019, Genet McCann made
oral request for a 60 day continuance on the
conservators’ petitions for approval of the final
accounting and termination of the conservatorship
11

to conduct discovery, file pre-trial motions, and
prepare personal liability claims against the
conservators for the misappropriation of over $20
million dollars in estate assets. (Ap-1, p.7:4-11; 8G6; 10:9-18) Judge Manley denied the request and set
the hearing four weeks out, even though, the
conservators’ final inventory of estate assets and
petition for termination had not yet been filed and
served. (Ap-1,p.2:18*22) Judge Manley determined
that Genet McCann had through November 13, 2020
to conduct discovery and file pre-trial motions for the
November 27, 2019 final hearing on both of the
conservators’petitions. (Ap-1, pp. 12:24-25—13:1-9;
15:11-15)
On November 13, 2020, Genet filed an
Affidavit to Disqualify Judge Manley, pursuant to
Mont. Code Anno., §3-1-805, M.C.A., based upon
newly discovered evidence. (Ap-2)
Judge Manley directed the Office of the Clerk
of District Court to remove the certified filed and
docketed Affidavit to Disqualify, and then issued a
November 21, 2019 ex parte order changing his
October 23, 2019 order, stating Genet could not file,
unless attorney certified. (Ap-3) On November 26,
2019, Judge Manley issued a second ex parte Rule 11
Order that stated that Genet’s Affidavit to Disqualify
was never filed. (Ap-4,p.l) (According to §3-1-805,
M.C.A., upon the filing of the Affidavit to Disqualify,
subject matter jurisdiction is automatically
transferred to the Chief Justice of the Montana
Supreme Court to make the determination whether

12

or not to assign district court judge to hear the
disqualification matter.)
However, because Judge Manley directed the
Office of the Clerk of District Court to remove the
certified filed and docketed Affidavit to Disqualify,
the Affidavit to Disqualify was never transferred to
the Chief Justice of the Montana Supreme Court for
determination, even though, at the time of the
issuance of the two ex parte orders, Judge Manley
did not have subject-matter jurisdiction to act. (Ap5: 6:20-25—7:1-25)
At the November 27, 2020, final hearing in the
guardianship and conservatorship of A.M.M., Genet
McCann made the oral motion to recuse Judge
Manley and to vacate all his prior orders and
judgments in the six year long proceeding in DG 142/14-3 based upon the newly discovered evidence
that she averred in her affidavit to disqualify and re­
asserted at the hearing. (Ap.-5, pp.6:22-25—12G-25)
Judge Manley denied Genet’s motion to recuse
and to vacate his prior orders at the hearing. (Ap5,p. 13G-2) He also denied Genet’s request for
discovery and disclosure of the conservators’
management records of estate assets held in the
corporations that they seized from the estate during
the course of the conservatorship, and denied her the
constitutional opportunity and statutory right under
§72-5-436(2),(4), M.C.A. to make personal liability
claims against the co-conservators in their individual
capacities. (Ap-5, pp.33:i0-12;pp.50-53;pp.58-60)
Judge Manley approved the conservators’ final
accounting and management of the estate,
13

terminated the Guardianship and Conservatorship of
A.M.M. and closed the case. (Ap-6) He also served
upon Genet the November 26, 2019 ex parte Rule 11
order that banned her communications with the
clerks of district court and imposed a pre -filing
requirement that impeded Genet’s access to the
pending probate of her mother estate (In re Estate of
Anne Marie McCann, DP 19- 47), lodged in the same
judicial district court but before another sitting
district court judge. (Ap-5, pp.4-5) (Ap-4)
On May 15, 2020, Genet McCann appealed
Judge Manley’s denial of her motion to recuse and to
vacate all orders and judgments, appealed his two ex
parte Rule 11 Orders and appealed final judgment in
DG 14-2/14-3 that denied her statutory rights to the
conservators’ management records of estate assets
held in the conservator-controlled corporations,
denied her statutory right to assert personal liability
claims against the conservators for misappropriation
of over $20 million in estate assets and approved
conservators’ final accounting and closed the case.
(Ap-7)
On October 6, 2020, the Montana Supreme
Court entered an unpublished opinion in DA 20-21
affirming Judge Manley’s final Judgment, the
issuance of two Rule 11 ex parte orders and Judge
Manley’s refusal to disclose and recuse. (Ap-8) In re
Guardianship and Conservatorship ofA.MM., 2020
MT 257N, 472 P.3d 1204 (2020)(In re A.M.M., IV).

14

JURISDICTION
This Court has jurisdiction under 28 U.S.C.
§1257(a). The final judgment of the Montana
Supreme Court was entered on October 6, 2020.
This petition seeks review of the denial of Ms.
McCann’s recusal motion by Judge James A. Manley,
as well as the October 6, 2020 opinion by the
Montana Supreme Court denying all relief and
refusing to consider several of the issues raised.
On March 19, 2020, this Court granted 150
days from the date of the lower court judgment to file
petition for writ of certiorari due on or after March
19, 2020, until further notice by this Court. No
further notice given as of the date of this petition.

CONSTITUTIONAL PROVISION
The First Amendment to the United States
Constitution provides that Congress shall make no
law ... prohibiting D the right of the people D to
petition the Government for a redress of grievances.”
U.S. const, amend. I.
The Fourteenth Amendment to the United
States Constitution provides that no State shall
“deprive any person of life, liberty, or property,
without due process of law.” U.S. const, amend. XIV
§1-

15

STATEMENT OF THE CASE
A.

Introduction

The facts of this case cry out for this Court’s
intervention. This case demonstrates the egregious
disregard to the federal Constitution that occurs in
state courts, especially in sparsely populated states,
when personal interests and close relationships take
precedence over the rule of law. The phenomenon
demonstrates the need for this Court to exercise its
discretionary duty and intervene for the sake of the
federal Constitution and the integrity of the Nation’s
judicial system, and the sanctity of family life.
B.

Trial and Direct Appeal Proceedings

Timothy McCann, (brother to Petitioner) cared
for both of their aging parents for seven years,
without complaint, however, within six months after
his father’s death, Timothy’s mother, Anne Marie
McCann (A.M.M.) received notice from her attorney
that her adult children Paul McCann, Jr., Sheila
McCann and Bill McCann intended filed a petition
for guardianship over her person and
conservatorship over her multi-million dollar estate
that she acquired upon her husband’s death. (Ap9,p.2) (“Sheila and Paul have hired attorney Bog
Long in Poison to bring an action to appoint a
guardian and conservator. 0 In our conversation you
stated, unequivocally, that you trusted Tim and that
you wanted him to serve as your agent.” “I stated
that you have told me that you want Tim to serve in
this capacity.”) In response, Tim filed a (counter)
petition. A.M.M. filed her Affidavit to Nominate
16

Timothy McCann on the same date, and, on January
15, 2017, the consolidated proceedings began in In re
Guardianship and Conservatorship ofA.M.M.
(hereinafter In re A.M.M). (Ap -10)
On February 28, 2014, District Court Judge
James A. Manley accepted assignment over the
consolidated cases, and immediately issued a notice
to the parties that he was personally nominating
Doug Wold (his undisclosed close life-long friend) for
the position of conservator to be determined at the
hearing on the two family petitions. (Ap-ll).
,

According to Montana Code Anno., §72-5-410,
nomination is not the role of the presiding judge.
Rather, only those who have either personal
knowledge of, or personal relationship with A.M.M,
are qualified to nominate; such as, A.M.M. herself,
her immediate family members or those who have
worked closely with her. See §72-5-410, M.C.A.
At the time of his nomination, Judge Manley
did not disclose to the parties that his nominee, Doug
Wold, is his life-long personal friend of over 53 years
and father of his personal judicial assistant on the
case, Chantel McCauley, who is also a life-long
personal friend of his, and as the case unfolds, post­
judgment evidence surfaced that indicated that she
was also working for her father on the case. (Ap-12,
Exs. 6-7)
Over parties’ objections to his nomination, on
March 14, 2014, Judge Manley summarily denied
A.M.M. her counsel, took judicial notice of hearsay
non-medical expert report, relied upon undisclosed
17

friend Casey Emerson’s lay opinion and determined
A.M.M. was incapacitated and appointed his
un disclosed life -long friend, Doug Wold, as a co­
conservator to the Estate of A.M.M. and after the
close of the hearing accepted the previously
undisclosed nomination of Casey Emerson and
appointed her guardian, without due process,
because he “trusts her.” (Ap-13,pp. 145:18—146:6)
(Ap-14,p.l0, 1fl) Neither were petitioners, neither
presented evidence to support their unauthorized
nominations, nor appeared for the statutory and
constitutional purpose that guarantees A.M.M.’s
right to cross-examine them. See. §72*5-315(4),
M.C.A. (The allegedly incapacitated person is
entitled “to be present by counsel, to present
evidence, to cross-examine witnesses”.). The
compelling undisclosed truth was that they were his
people, set in place for their personal financial
interests in the multi-million dollar estate.
Timothy McCann appealed the order, and
Montana Supreme Court affirmed judgment In the
Matter of the Guardianship and Conservatorship of
A.M.M, 2015 MT 250, 380 Mont. 451, 356 P.3d 474
(2015)C/n reA.M.M., I).
Timothy’s Affidavit To Disqualify
After filing an appeal in DG 14-2/14-3,
Timothy learned of undisclosed disqualifying facts
and filed his Affidavit to Disqualify pursuant to
Mont. Code Ann. §3-1-805, on September 10, 2014.
(Ap.-12,tl7)

18

Therein, Tim McCann averred, inter alia, that
Judge Manley had an undisclosed long-time
association with Doug Wold, his nominee-turnedconservator appointee, key witness and attorney on
the case. (Ap-12, f 51) He also averred that “[i]t has
come to light that Judge Manley’s clerk of judicial
chambers, Chantel (Wold) McCauley, is the daughter
and clerk/secretary to Doug Wold and his law firm
Doug Wold Law Firm.” . (Ap-12, ^[18, ^152) He
produced corroborating evidence that Judge Manley’s
personal judicial assistant on the case is also
working for her undisclosed father, Doug Wold, and
the Doug Wold Law Firm, on the case. (Ap-12, Tj52,
Ex. 6^ Insty print invoices, attention to Chantel Wold
McCauley of the Doug Wold Law Firm, for work on
the McCann cases! Ex. T- Recording of the Wold Law
Firm’s Phone message: “Press line 1, for Doug Wold,
press line 2, for Chantel”)
He averred that he discovered post-judgment
that Judge Manley has undisclosed long-time
association with Ms. Casey Emerson, through her
father, Clint Fischer, an attorney of record in
subsequent proceedings in the case. (Ap*12,f ^[16-17)
Her post-judgment guardian invoices to A.M.M.
revealed that just two days before the hearing, Casey
Emerson had an undisclosed 30 minute ex parte
communication with opposing petitioner’s counsel of
record Robert Long, and that one day before the
hearing, she had a 15 minute undisclosed
communication with Judge Manley. (Ap-12, ^[2427)

19

The next day, Casey Emerson testified as an
independent court appointed investigator—a position
referred to as a “visitor”, and, pursuant to §72-5-313,
M.C.A., required her to have no personal stake in the
outcome of the proceeding. See §72-5-313, M.C.A.
She nonetheless testified, without disclosing her
personal stake in the outcome of the proceeding as
the secret nominee for the shoe-in appointment of
guardian after the close of the evidentiary hearing.
(Ap-13, pp.145-146) In particular, she testified that
A.M.M. was incapacitated, indicated Tim was
engaging in undue influence and therefore, A.M.M.
was in need of a guardian, indicating a person who is
independent of family members. (Ap-15,pp. 15-30)
After the close of the evidentiary hearing,
Judge Manley permitted the unauthorized
nomination of Ms. Casey Emerson and appointed
her. (Ap-14,p.l0,fl) At that time, he did not
disclose his personal association with Casey Emerson
nor did he disclose the 15 minute ex parte
communication he had with her one day before the
hearing that appears to have been the subject-matter
of the ex parte communication that she had one day
before with Paul McCann, Jr.’s attorney Bob Long,
and appears to have been an arrangement to have
her nominated after the close of the evidentiary
hearing, after she testified as an independent
investigator, to have Judge Manley appoint her
guardian because he “trusts her”. (Id.)
According to Section 3-1-805, M.C.A. the filing
of Timothy’s Affidavit to Disqualify automatically
transferred jurisdiction to the Chief Justice of the
20

Montana Supreme Court to make a determination of
whether or not to assign a district court judge to hear
the matter. (See §3-1-805, M.C.A.) On September 17,
2014, Chief Justice determined that it was
unnecessary to appoint a district judge to hear the
matter since Timothy’s allegations are based solely
on the ruling which can be addressed in an appeal.
(Ap-16)
Petitioner’s March 2, 2015 Motion to Recuse
By operation of §3-1-805, Timothy’s
allegations were not raised before the trial judge in
DG 14-2/14-3. Therefore, to preserved allegations for
appeal, on March 2, 2015, Genet filed motion to
recuse, and alleged, inter alia, that there are
disqualifying close personal relationships between
Judge Manley, his judicial assistant, Chantel
McCauley and Doug Wold, the key attorney, witness
and co-conservator on the case, including
corroborating evidence that Judge Manley’s judicial
assistant is also working on the case for father Doug
Wold and the Doug Wold Law Firm. (Ap-17)
Judge Manley initiates Rule 11 Proceedings
Despite the resulting inquiry into Judge
Manley’s neutrality, Judge Manley did not disclose
his personal life-long relationships with Doug Wold
or Chantel McCauley or the familial (and
professional) relationship between his two friends.
Rather, before briefing closed and before he ruled
upon Ms. McCann’s recusal motion, Judge Manley,
sua sponte, instituted Rule 11 proceedings against
Ms. McCann on the grounds that she made frivolous
21

Comm’n on Jud. Qualifications, 532 P.2d 1209 (Cal.
1975). (Ap.-19,pp.5-7)
Judge Manley Presides Over Rule 11 Hearing
At the Rule 11 hearing, Judge Manley then
initiated, from the bench, the testimony to rebut the
corroborating evidence that Chantel was working for
both her father and Judge Manley on the case.
Judge Manley testified —and Doug Wold, opposing
witness, confirmed— that by the time Genet McCann
filed her March 2015 motion to recuse, she knew that
her recusal allegations were false and frivolous since
Doug Wold had testified at an earlier hearing in
August/September, 2014 that he had taken Chantel’s
name off of his law firm’s account at Insty Print and
also had taken her name off his firm’s recorded
phone message that says you have reached “the Wold
Law Firm, line 1, Doug Wold, Line 2 Chantel. ” (Ap20,p. 34:3-20)
To wit:
THE COURT: Actually, as I
recall
back,
there
was
testimony at that time that
you [speaking to Doug Wold]
had learned in August of the
accusation that Chantel was
still working for you because
of this phone message and so
you changed your phone
message and you also, when
you found out her name was
still on the old Insty-Print
23

account, you changed that.
It’s my recollection that all of
that
was
disclosed
in
September.
MR. WOLD:
Honor.

Yes, your

(Ap-20, p.34:3-20)
Genet was not a party or attorney of record to
the proceeding in August or September 2014, but
after the Rule 11 hearing, Genet thoroughly
reviewed the records and discovered that Doug Wold
had not testified regarding the matter in August or
September of 2014, or, for that matter in any other
prior proceeding to Genet filing her March 2, 2015
Motion to Recuse. (Ap-21, pp.6-9) The only hearing
in August or September was the August 28, 2014
Hearing and there is no testimony remotely related
to the matter. (Ap-22)
On June 24, 2015, Judge Manley convicted her
and issued Rule 11 Order that imposed
approximately $13-14 grand in attorney fees
awarded to Judge Manley’s undisclosed friends,
Doug Wold, for appearing as opposing witness, and
Casey Emerson, for sitting in the audience. (Ap-23,
p. 2,f l) The Order also imposed a pre-filing
requirement that required a Montana licensed
attorney to certify Genet’s petitions are wellgrounded in fact and law under Rule 11(b),
M.R.Civ.P. (Ap-23, p.3,f2) Judge Manley, however,
applied the Rule 11 pre-filing requirement to strike
all of Genet’s filings, even with attorney certification.
24

(Ap-24) The attorney who was certifying Genet’s
filings averred that she received a call from a local
Poison attorney and was warned that “things would
not go well with her”, if she continued to certify my
filings. (Ap*25,t7)
Ms. McCann filed an appeal and amended it
as these orders were rendered. She contended on
appeal, inter alia, that she discovered post-Rule 11
hearing and order that the testimony of Judge
Manley in concert with Doug Wold’s testimony was
gained extra-judicially since the court records
confirmed that Doug Wold never gave the testimony
regarding Chantel’s name being taken off his firms’
account at Insty Prints and his firm’s recorded phone
message, not in August nor September 2014, nor, for
that matter in any other proceeding in DG 14-2/14-3
prior to her filing her March 2, 2015 Recusal Motion.
(AP-2l)(Ap-22) She, thus, further contended that the
newly discovered facts reveal that Judge Manley
gained personal knowledge of material facts in
dispute through extra-judicial, ex parte, means
which demonstrates the truth of her allegations that
Judge Manley’s undisclosed close personal friends,
one his judicial assistant, Chantel McCauley, the
other, her father, Doug Wold, the conservator, key
opposing witness, and attorney on the case creates
an unconstitutional risk of actual bias.
Moreover, the Judge initiated testimony
conflicted with the indisputable documentary
evidence since if it was true as Doug Wold and Judge
Manley asserted, that the reason Chantel’s name
was on the Wold Law Firm’s Invoice was because it
25

was still on it after Chantel went to work for Judge
Manley in 2013, the first Insty Print Invoice to the
Doug Wold Law Firm for work on the McCann case
would have Chantel’s name on it, but it does not.
Her name was added to the Wold Law Firm’s account
with Insty Prints sometime after Doug Wold was
appointed conservator in DG 14-2/14-3. (Ap-19^ last
Ex.)
The Montana Supreme Court affirmed Judge
Manley’s decision not to recuse, ignoring the truth of
Genet’s assertions on appeal that Judge Manley has
personal knowledge and personal interest in the case
and engaged in extra-judicial communications with
material witnesses regarding material facts, that
support the truth of Genet’s allegations that their
close personal relationships create an
unconstitutionally risk of actual bias. It also
disregarded all the federal due process constitutional
arguments against a judge presiding on a case where
he acted as accuser, has personal knowledge and
personal interest in the dispute. In re Murchison, 49
U.S. 133, 138-39, 75 S.Ct. 623 (1955) (“A judge’s
interest in a conviction makes the proceedings
inherently prejudicial and thus constitutionally
invalid.”).
Rather, the Court, ignored the federal due
process arguments and held that “[w]e agree with
the District Court that there is no evidence in their
record supporting Genet’s allegations that Judge
Manley violated either Rule 2.12 or Rule 2.13 of the
Code of Judicial Conduct. It held that Genet did not
file an affidavit alleging bias or prejudice or
26

otherwise comply with §3-1-805, M.C.A. “The
requirement of an affidavit is therefore not
dispensable. We conclude the District Court did not
err by denying Genet’s motion to recuse.” In re
II, Tf23. It also ignored its own case law —
that Genet timely raised on appeal— that permits a
party to raise disqualification claim in a motion to
recuse. See Draggin’y Cattle Co. v. Addink, 2016 MT
98,1|22 (Claim for disqualification may be raised by
motion before the district court at the day of trial.)
Judge Manley An Adverse Witness at
Disciplinary Proceedings
Within 5 days of Judge Manley’s June 24,
2015 Rule 11 Order, Doug Wold initiated attorney
disciplinary complaint against Ms. McCann. As a
result, the Office of Disciplinary Counsel (ODCXthe
prosecutorial arm of the Montana Supreme Court
who has exclusive jurisdiction over attorney
disciplinary proceedings) filed formal complaint
against Genet based upon charges that directly arise
from Judge Manley’s Rule 11 Judgment. See In re
Genet McCann, ODC No. 15-078/PR 16-0635, before
the Commission On Practice in ODC No. 15-078 and
the Montana Supreme Court in PR 16-0634 (June 5,
2018).
As an adverse witness at the March 23, 2018
disciplinary proceedings, Judge Manley testified
against Genet based on the Rule 11 proceeding.
Genet was not present. McCann v. The Montana
Supreme Court, before the U.S. District Court of the
State of Montana, Helena Division, CV-18-42-H-SEH
(Apr. 16, 2018)(dkt. 1- Am. Complaint)
27

The March 23, 2018 testimony of Judge
Manley, however, revealed four new pieces of
evidence that establish additional grounds to request
recusal in DG 14-2/14-3. First, Judge Manley
intentionally suborned the false testimony against
Genet, under oath, to recommend and cause her
disbarment. Second, he had also intentionally
suborned the same false testimony, in collusion with
Doug Wold, at the Rule 11 proceeding in DG 14-2/143.

Genet realized that the record indisputably
shows that Judge Manley intentionally suborned
false testimony in both cases because He suborned
the same false testimony after Genet, on appeal in re
II, exposed that the record shows that Doug
Wold never testified about the matter in
August/September 2014 in DG 14-2/14-3, as Judge
Manley testified. (Ap-26, pp.36-28) Thus, the giving
of the false testimony to convict Genet of Rule 11
charges and then again to cause her disbarment was
not a mistaken slip of ex parte knowledge. It was
deliberate.
To witJUDGE MANLEY: And could
I add for the Commission,
when those allegations were
first made and I talked to
Chantel
about
it,
she
explained, “This is probably
an old account at Mailboxes or
my old voicemail.”
I
remember saying rather than
28

contacting her dad or doing
anything about it, at the next
hearing we would see that
there was testimony, and she
may be called as a witness, if
necessary, on that point so
that it would be a matter of
record.
So at the next hearing, D
Doug Wold did testify because he was on the stand
as a witness regarding some
other issue, but I asked him
specifically and he did testify
under oath that there was no
basis, factual basis, and that
those were false allegations,
and he explained them. And
yet, Genet continued to make
those allegations even after
that had been put on the
record under oath.
(Ap-27, pp.78:4—79:4)
Third, Judge Manley’s testimony also reveals
that he engaged in his own undisclosed investigation
with a material witness (Chantel) regarding material
facts determined in his Rule 11 Judgment. (“[W]hen
those allegations were first made and I talked to
Chantel about it, she explained, “This is probably an
old account at Mailboxes or my old voicemail.”) Id.

29

Finally, Judge Manley also testified, albeit
inadvertently, for the first time to his life-long
personal friendships with the Doug Wold family. He
testified that he has known Chantel (Wold)
McCauley—a woman of over 53 years—since he
watched her grow up in Doug Wold’s family. (Ap27,p.88‘ 21*25)(“I watched her grow up.”).
Genet’s 2019 Affidavit to Disqualify
On October 23, 2019, Genet McCann made
oral motion for a continuance on the conservators’
petitions for approval of the final accounting and
termination of the conservatorship, to conduct
discovery, file pre-trial motions, and prepare
personal liability claims. (Ap-l,p.8:2) As customary,
Doug Wold requested hearing in 30 days, give or
take a day or two, and his daughter, the judicial
assistant for Judge Manley, always complied with
her father’s request that rushed the hearings to
approve the conservators’ annual accounting 30 or so
days later. (Ap-1, pp.8:20*22,' p.l2:24-25Jp. 13:1-5)
Judge Manley denied Genet’s request and
rushed the final hearing on conservators’ petitions,
even though one of the petitions was not yet filed.
(Ap-1, p.2:18-22) However, Judge Manley issued oral
order that Genet McCann had through November 13,
2020 to conduct discovery and file pre-trial motions
for the November 27, 2019 final hearing on the
conservators’petitions. (Ap-l,pp.13:7-9; 15:13-15) It
would be the final hearing where all unsettled
personal liability claims against the conservators
had to be made or forfeited pursuant to §72-5-438(2),
M.C.A. Genet had four weeks to conduct discovery,
30

write pre-trial motions, gather witness, including
expert witnesses required to present personal
liability claims for the violation of trustee conservator duties to disclose conservator
management records and the fraudulent
misappropriation of over $20 million dollars in estate
assets concealed in conservator seized corporations.
On November 13, 2020, Genet filed an
Affidavit to Disqualify Judge James A. Manley,
pursuant to Mont. Code Anno., §3-1-805, M.C.A.,
based upon newly discovered evidence discussed,
supra. (Ap-2) However, Judge Manley directed the
Office of the Clerk of District Court to remove the
certified filed and docketed Affidavit to Disqualify,
and then issued a November 21, 2019 ex parte Rule
11 order changing his October 23, 2019 oral order,
stating Genet could not file unless attorney certified.
(Ap-3) (Ap*5,pp.6-7) (Ap-6)
On November 26, 2019, Judge Manley issued a
second ex parte Rule 11 Order that stated that
Genet’s Affidavit for Disqualification was never filed.
(Ap-4) (According to §3-1-805, M.C.A., upon the filing
of the Affidavit to Disqualify, subject matter
jurisdiction is automatically transferred to the Chief
Justice of the Montana Supreme Court to make the
determination whether or not to assign district court
judge to hear the disqualification matter.) However,
because Judge Manley directed the Office of the
Clerk of District Court to remove the certified filed
and docketed Affidavit to Disqualify, the Affidavit to
Disqualify was never transferred to the Chief Justice
of the Montana Supreme Court for determination,
31

even though Judge Manley, at the time, per §3-1-805.
did not have the power to act in the case. (Ap-5,p.9)
At the November 27, 2020 hearing, and in
response to Judge Manley stating that Genet’s
Affidavit to Disqualify had never been filed, she
stated that it was certified filed and docketed. He
threatened Genet three times with contempt of court
for asserting that she had proof that it had been filed
and wanted to enter it into the record as a hearing
exhibit. (Ap*5,pp.7-8) When she produced it to enter
it into the record, he refused. (Ap-5,p.8:25) He also
refused Genet’s request to enter into the record the
2018 transcripts of his testimony as adverse witness
against Genet regarding facts in this proceeding.
(Ap-5p.9:22-25;ii:4-9).
Genet sought to assert the certified filed and
docketed Affidavit to Disqualify as proof that it was
filed and that he no longer had subject-matter
jurisdiction over this case, per §3-1-805 since
November 13, 2019, the date her Affidavit to
Disqualified was filed. (Ap-2,p.l)(Ap-5, pp.33-34)
Nonetheless, Genet motioned at the final
hearing to recuse Judge Manley and to vacate all his
prior orders and judgments in the six year long
proceeding in DG 14-2/14-3, based upon the newly
discovered evidence, inter alia, that Judge Manley
had personal knowledge, personal interest, twice
suborned false perjured testimony against Petitioner
regarding the conduct and events in DG 14-2/14-3.
She also asserted recusal because of newly
discovered evidence that Judge Manley investigated
material facts in DG 14-2/14-3 and persisted in his
32

intentional non-disclosure of his life-long friendship
of 53+ years with Doug Wold and his daughter,
Chantel McCauley, who, as a result of these close
personal familial ties became Judge Manley’s
personal judicial assistant on the case, and the
evidence that she is working for both. (Ap-5,pp.9-12)
Genet further contended that Judge Manley
has a direct, substantial, personal financial interest
in the outcome of the November 27, 2019 hearing
because a favorable outcome protects his and his
undisclosed life-long friend’s financial fortune from
Genet’s personal liability claims against the
conservators. Id. By presiding over the final hearing
to block Genet’s personal liability claims against the
conservators, he created an order that the
conservators and his attorney would use to
collaterally estop Genet’s pending civil RICO charges
against them for their participation in the
enterprise-in-fact to use the conservatorship and the
estate corporations to further their scheme to take
over the estate corporations and misappropriate over
$20 million in estate assets, including his suborning
perjured testimony in collusion with Doug Wold, to
intentionally hinder, impede and block the due
administration of justice in both DG 14-2/14-3 and
ODC No. 15-078/PR 16-0635, in violation of 18 U.S.C.
§1503. (Ap-5,pp.6-12)
Judge Manley denied Genet’s oral motion to
recuse and to vacate his prior orders. (Ap-5, p.13:1-2)
He denied Genet’s request for discovery and
disclosure of the co-conservatorship management
records of estate assets held in the corporations that
33

they seized from the estate during the course of the
conservatorship, and denied her the opportunity to
assert her unsettled personal liability claims against
the conservators for violating their trustee duties to
disclose their management records of estate assets
held in the conservator-controlled corporations and
for the fraudulent misappropriation of over $20
million dollars in estate assets concealed in estate
closely-held corporations seized by the conservators.
(Ap-5, pp.33:l0-12;pp.50-53!pp.58-60)
Judge Manley approved the conservators’ final
accounting and signed Doug Wold’s proposed order
that terminated the guardianship and
conservatorship and closed the case. (Ap-6) Judge
Manley served upon Genet two ex parte Rule 11
orders, stating that they are expansions of his June
24, 2015 Rule 11 order, without any due process
notice or opportunity. (Ap-5, pp.4-5)(Ap-4,p.2)(Ap-3)
The November 26, 2019 ex parte order amended the
Rule 11 order to enjoin alloi Genet’s communications
with the Office of the Clerk of District Court in Lake
County, and directed the same office not to accept
any of Genet’s filings in any case in the Twentieth
Judicial District Court, unless attorney certified. Id
Final Appeal in DG 14-2/14-3
On May 15, 2020, Genet McCann appealed Judge
Manley’s denial of her motion to recuse and to vacate
all orders and judgments, the denial of discovery and
statutory rights to the management records of estate
assets held in the conservator seized and controlled
corporations, and appealed his two ex parte Rule 11
34

Orders and appealed final judgment in DG 14-2/14-3.
(Ap-7)
On October 6, 2020, the Montana Supreme
Court entered an unpublished opinion in DA 20-21
affirming Judge Manley’s final Judgment, the
issuance of two Rule 1\ ex parte orders and Judge
Manley’s refusal to disclose and recuse. (Ap-8) In re
Guardianship and Conservatorship of
2020
MT 257N, 472 P.3d 1204 (2020)(In re A.M.M., IV))
The Montana Supreme Court unconstitutionally
failed to consider several of the issues raised on
appeal. The Court failed to consider Judge Manley’s
denial of Ms. McCann’s oral motion to recuse Judge
Manley at the final hearing on November 27, 2020.
It also failed to consider whether Judge Manley’s
November 27, 2019 Judgment was rendered without
subject-matter jurisdiction pursuant to Section 3-1805, M.C.A., since the Affidavit to Disqualified was
certified filed and docketed. The Court also failed to
consider the denial of her §72-38-813 statutory
requests for disclosure under the conservators’
trustee duty to disclose the conservators’
management of 98% of the estate assets that are
held in the conservator-controlled corporations. The
Court also failed to consider the denial of Ms.
McCann’s right to pursue her unsettled personal
liability claims against the conservators at the final
hearing.
Finally, the Court affirmed the
unconstitutional issuance of two ex parte ~Rvle 11
orders, in disregard of both constitutions and case
law interpreting Rule 11, to affirm the on-going ban
35

upon Genet’s fundamental 1st & 14th Amendment
rights to petition and participate in her mother’s
pending probate proceeding.

REASONS FOR GRANTING THE PETITION
I.

THIS COURT SHOULD GRANT
CERTIORARI TO REVIEW AND REVERSE
JUDGE MANLEY’S FAILURE TO DISCLOSE
AND RECUSE AND VACATE HIS ORDERS.

“The principal purpose of this Court’s exercise
of its certiorari jurisdiction is to clarify the law,” and
to correct contraventions to its Constitutional
Precedents, especially egregious ones. Caperton v.
AT. Massey Coal Col, 556 U.S. 902 (2009)(Scalia, J.,
dissenting).
The judicial conflicts of interests in extreme
contravention to this Court’s due process precedent
and its fundamental commitment to impartial justice
emphasizes the gross maladministration of justice
that flourishes when the state judiciary is allowed to
benefit their close friends. In 2004, Justice Scalia in
his memorandum surveyed the law on the issue of
friendship recusal, brilliantly indicating the
standard is amorphous. (Cheney v. U.S. District
Court for the District of Columbia, 541 U.S. 913
(2004) (mem.) (Scalia, J.) He surmised that “[i]f
friendship is basis for recusal (as it assuredly is
when friends are sued personally) then activity
which suggest close friendship must be avoided. But
if friendship is no basis for recusal (as it is not in
official-capacity suits) social contacts that do no more
36

than evidence that friendship suggest no impropriety
whatever.” Cheney, 541 U.S. at 926; see also Jeremy
M. Miller, Judicial Recusal and Disqualification^ The
Need for a Per Se Rule on Friendship (Not
Acquaintance), Pepperdine Law Review vo. 33, Iss. 3,
4-20-2006, p. 577. (“There is a glaring gap in the law
on the issue of when a judge must recuse himself or
herself because a party or advocate in the case is a
friend.”).
In a respected poll of judges, the judges
themselves indicated that they did, in fact, desire
more guidance and specificity in recusal decisions.”
See Jona Goldschmidt & Jeffrey M. Shaman, Judicial
Disqualification■' What Do Judges Think?, 80
JUDICATURE Sept.-Oct. 1995, at 68-72.
The importance of hearing from this Court to
establish a clear outer-boundary on close friendship
recusal is long sought both by this Petitioner, the
legal community as a whole and the public, so that
under no circumstance is the judiciary’s commitment
to impartial justice placed in disrepute by the
temptations common to all men and women.
A.
This Case Exposes A Pattern of
Violations Against the Due Process Clause of
the Fourteenth Amendment To Overlook
Indisputable Evidence in the Record, Timely
Preserved and Asserted On Appeal, To Affirm
A Judge Persisted Non-Disclosure of
Disqualifying Facts After Presented in Open
Court with the New Indisputable Evidence
That He Independently Investigated Material
Facts and Suborned False Testimony, In
37

Collusion with His Undisclosed Life-Long
Close Friend, in an Earlier 2015 Rule 11
Hearing—He Initiated, As Accuser, and,
Adjudged Guilty, as Presiding Judge—And
Again At an Attorney Disciplinary
Proceedings in 2018, to Suppress the Truth of
Petitioner’s 2015 Recusal Allegations and
Block Petitioner, throughout the Six Year
Proceeding with His Fraudulently Obtained
Rule 11 Pre-Filing Order—And Continue To
Preside Over and Rush the Approval of the
Conservators’ Accounting of over $20 Million
in Diminished Assets, Transfer the Rest of the
Estate to the Other Conservator, as the Ex
Parte Appointed Personal Representative of
Ann Marie’s Intestate Estate, in Knowing
Disregard of Anne Marie’s Properly Executed
Written Last Will & Testament, to Keep
Concealed the Misappropriation of over $20
Million Estate Assets under Judge Manley’s
Oversight.
The “Due Process Clause entitles a person to
an impartial and disinterested tribunal in both civil
and criminal cases.” Marshall v. Jerrico, Inc., 446
U.S. 238, 242 (1980); accord In re Murchison, 349
U.S. 133, 136 (1955) (“A fair trial in a fair tribunal is
a basic requirement of due process.”). The
“requirement of neutrality” as to bias and interest is
central to the guarantee that life, liberty, or property
will not be taken on the basis of an erroneous or
distorted conception of the facts or the law.”
Marshall, 446 U.S. at 242. An individual, the Court
38

wrote, must be assured “that the arbiter is not
predisposed to find against him.” Id.
This due process right “has been jealously
guarded by this Court” because it “preserves both the
appearance and reality of fairness, generating the
feeling, so important to a popular government, that
justice has been done.” Id.
Therefore, it is axiomatic that the reviewing
Court ask “whether, as an objective matter, ‘the
average judge in his position is likely to be neutral,
or whether there is an unconstitutional potential for
bias.” Williams v. Pennsylvania, 136 S. Ct. 1899,
1905 (2016)(quoting Caperton v. A.T. Massey Coal
Co., 556 U.S. 868, 881, 29 S.Ct. 2252, 173 L.Ed.2d
1208 (2009)); see also Aetna Life Ins. Co. v. Lavoie,
475 U.S. 813, 106 S.Ct. 1580, 89 L.Ed.2d 823 (1986)
(recusal required where the circumstances “would
offer a possible temptation to the average . . . judge
to . . . lead him to not to hold the balance nice, clear
and true” (ellipses in original) (quoting Ward v. Vill.
ofMonroeville, 409 U.S. 57, 60 (1972)).
This Court’s precedents applied the Due
Process Clause in circumstances of varying degrees
of interests or relationships, where “the probability
of actual bias on the part of the judge or
decisionmaker is too high to be constitutionally
tolerable”. Caperton v. A.T. Massey Coal Co., 556
U.S. 868, 876-77, 29 S.Ct. 2252, 2259, 173 L.Ed.2d
1208 (2009) (citing Withrow v. Larkin, 421 U.S. 35,
47, 95 S.Ct. 1456, 43 L.Ed.2d 712(1975)).

39

For example, this Court found that, in Aetna
Life Ins. Co. v. Lavoie, the judge’s self-interest in
establishing a legal precedence in the case he was
presiding over unconstitutionally benefitted him in
his pending personal lawsuit and therefore required
disqualification under the Due Process Clause.
Caperton, 556 U.S. at 879, 29 S.Ct. at 2260*61 (citing
Aetna Life Ins. Co. v. Lavoie, 475 U.S. 813, 823*825,
106 S.Ct. 1580, 89 L.Ed.2d 823 (1986)). It held
recusal was required because the judge had an
“interest” or “direct stake” in the matter—in having
the case unfold in a manner that “enhance[es] both
the legal status and the settlement value of his own
case.” Caperton, 556 U.S. at 821, 824.
Another key case emerged in the criminal
contempt context, where a judge had no pecuniary
interests in the case but nonetheless was found to
have a conflict of interest presiding over the trial
where he acted as accuser in an earlier single-judge
grand jury proceeding wherein he charged a witness
with contempt because he believed the witness was
lying, and then presided over to convict the witness.
Caperton, 556 U.S. at 880, 29 S.Ct. at 2261 (citingih
re Murchison,349 U.S. 133, 136, 75 S.Ct. 623, 99
L.Ed. 942 (1955). The Court noted that disqualifying
criteria “cannot be defined with precision.
Circumstances and relationship must be considered.”
Id. In reliance upon the guiding principle that “[nlo
man can be a judge in his own case.” to add that “no
man is permitted to try cases where he has an
interest in the outcome.” the Court determined that,
“[hjaving been part of the [one-man grand jury
accusatory] process, the judge could not preside over
40

the witness’s contempt proceedings because it was
improbable the judge could be “wholly disinterested.”
Murchison, 349 U.S. at 136*37 (Emphasis added).
The Court explained that the judge’s
participation in the earlier, secret accusatory process
made him “more familiar with the facts and
circumstances” and deprived the defendant of the
ability to call relevant witnesses, including the judge,
who “might himself... be a very material witness.”
Id. at 138. Independently investigating a fact not
introduced into evidence, violates the judicial
obligation as the finder of fact to refrain from
seeking or obtaining evidence outside that presented
by the parties during trial. Price Bros. Co. v. Phila.
Gear Co., 629 F.2d 444, 447 (6th Cir. 1980)
(“Unquestionably, it would be impermissible for a
trial judge to deliberately set about gather facts
outside the record of a bench trial over which he was
to preside.”).
In surveying these U.S. Supreme Court cases,
the Caperton Court re-iterated the controlling
principle enunciated as early as 1927 in Tumey v.
Ohio“Every procedure which
would offer a possible
temptation to the average
man as a judge to forget
the burden of proof
required to convict the
defendant, or which might
lead him not to hold the
balance nice, clear and
41

true between the State and
the accused, denies the
latter due process of law.”
Caperton, 556 U.S. at 878, 29 S.Ct. at 2260 (citing
Turney v. Ohio, 273 U.S. 510, 535, 47 S.Ct. 437, 71
L.Ed. 749 (1927).
In 2016, this Court reverse judgment under
the Due Process Clause because there was “an
impermissible risk of actual bias when [the Justice]
earlier had significant, personal involvement as a
prosecutor in a critical decision regarding the
defendant’s case.” Williams v. Pennsylvania, 136 S.
Ct. 1899, 1905 (2016). “Having been a part of [the
accusatory] process a judge cannot be, in the very
nature of things, wholly disinterested in the
conviction or acquittal of those accused.” Id. (citing
In re Murchison, Id. at 137, 75 S.Ct. 623, 99 L.Ed.
942). “In addition, the judge’s ‘own personal
knowledge and impression’ of the case, acquired
through his or her role in the prosecution, may carry
far more weight with the judge than the parties’
arguments to the court.” Id. (citing In re Murchison,
at 138.)
The next year, this Court vacated judgment
where the judge refuse to recuse and presided over to
rush a murder trial to conviction and chose not to
disclose that he was a witness to the investigation or
his association with the weapon, even though the
release of the weapon was relevant to Petitioner’s
defense. Lacraze v. Louisiana, 138 S.Ct. 60 (2017)
(vacated and remanded in light of Rippo v. Baker,
580 U.S.
, 137 S.Ct. 905, 197 L.Ed.2d 167 (2017)
42

(Allegations that the presiding judge was a target of
a bribery investigation by the prosecutor required
reversal.)
Court reversed denial of recusal motion
without opportunity for discovery, since petitioner
alleged specific fact suggesting the judge may have
colluded with defense counsel to rush the petitioner’s
case to trial? Rippo v. Baker, 580 U.S.__ , 137 S.Ct.
905, 197 L.Ed.2d 167 (2017) (citing Bracy v.
Gramley, 520 U.S. 899, 909 (1997) That is, the judge
took the case to trial quickly was specific, objective
indicia of intent to “deflect suspicious” of bias.). Id.
Finally, Justice Scalia’s memorandum, he
unequivocally stated, in dicta, that under the Due
Process Clause"[flriendship is grounds for recusal D
where the personal fortune □ of the friend is at
issue.” Cheney v. U.S. District Court for the District
of Columbia, 541 U.S. 913, 916 (2004) (mem., J.
Scalia)(“If friendship is basis for recusal (as it
assuredly is when friends are sued personally) then
activity which suggest close friendship must be
avoided.”) (emphasis added).Id., 541 U.S. at 926.
The principles on which these precedents rest
dictate the rule that must control in the
circumstances here.
After Judge Manley was presented with his
own 2018 testimony in the related attorney
disciplinary proceedings -that he not only
independent investigated material facts and did not
disclose, but also intentionally suborned false
testimony from the bench at the 2015 Rule hearing
43

in DG 14-2/14-3, in collusion with his undisclosed
personal life-long friend, Doug Wold, and again at
the 2018 attorney disciplinary proceedings, to
retaliate and suppress the truth of Petitioner’s 2015
recusal allegations (that he also inadvertently
admitted in 2018 proceeding)—Judge Manley
remained silent, denied leave to admit his own
transcribed 2018 testimony into the record, and
presided over the hearing to rush approval of his
undisclosed friend’s diminishment in estate assets by
over $20 million and block Petitioner’s personal
liability claims against his undisclosed friend, and
served his November 26th ex parte Rule 11 Order, to
intentionally block her Petitioner’s 1st and 14th
Amendment rights to petition and participation in
the pending probate of Anne Marie’s Estate, before
another judge. (Ap-5)
A judge who intentionally suborned the same
false testimony twice against the Petitioner, once in
the present case as the presiding judge and the other
in a proceeding based upon the facts and
circumstances of this case, to suppress the truth of
her recusal allegations and recommend Petitioner’s
disbarment, it could be fairly said, objectively, that
the risk of actual bias would be too high to be
constitutionally tolerable. Lacraze v. Louisiana, 138
S.Ct. 60 (2017) (judgment vacated and remanded
where the judge presided over a murder trial and
chose not to disclose that he was a witness to the
investigation, his involvement in it, or his alleged
association with the weapon, but rather continued

44

his nondisclosure even though the release of the
weapon was relevant to Petitioner’s defense.)
The fact that he was also the undisclosed
independent investigator of material facts when he
was presiding judge of his own accusation against
Petitioner, “an unconstitutional potential for bias
existed.” Williams v. Pennsylvania, 136 S.Ct. at
1905 (citing In re Murchison, 349 U.S. at 138).
When the same person serves as both accuser and
adjudicator in a case” it could fairly be said that
Judge Manley violated the maxim that that “[n]o
man is allowed to be a judge in his own cause;
because his interest would certainly bias his
judgment, and, not improbably, corrupt his
integrity.” Caperton, 556 U.S. at 876, 29 S.Ct. at
2259 (citing The Federalist No. 10, p.59 (J. Cooke ed.
1961) (J. Madison).
“Having been a part of [the accusatory]
process [ he] cannot be, in the very nature of things,
wholly disinterested in the conviction or acquittal of
those accused.” Williams, 136 S.Ct. at 1906 (citing
In re Murchison, Id. at 137). “In addition, the judge’s
‘own personal knowledge and impression’ of the case,
acquired through his or her role in the prosecution,
may carry far more weight with the judge than the
parties’ arguments to the court.” Id.
Moreover, the intentionally suborning of false
testimony in collusion with Doug Wold, another
officer of the court, to obtain a Rule 11 pre-filing
order to bar Petitioner’s participation in the case is
fraud upon the integrity of the court demonstrates
45

the actual bias against Petitioner and the truth of
her allegations that the two work in tandem on the
case to undermine the integrity of the administration
of justice in DG 14-2/14-3. The intentional suborning
of a material misrepresentation, under oath, by
officers of the court constitutes fraud upon the court
since it is subverts the integrity of the court to
perform its functions. United States v. Sierra Pac.
Indus., Inc., 862 F.3d 1157, 1167-8 (9th Cir. 2017),
cert, denied, 138 S. Ct. 2675 (2018) (internal
citations omitted).
These facts support an objectively
ascertainable self-interest in non-disclosure of his
close personal friendship with Doug Wold, whom he
nominated the first day on the case, to then
appointed as conservator over a multi-million dollar
estate that would provide his undisclosed close friend
with a lucrative stream of wealth for as long as
control over the estate assets continued. Upon
nomina ting Doug Wold, as an objective matter, he
became psychologically wedded to appointing and
ensuring that his life-long friend would be benefitted
financially without risk of personal liability. The
average judge in his position would not hold the
balance, nice, clean and true.
It would “have prompted an average judge to
disclose and recuse. Cheney v. U.S. District Court
for the District of Columbia, 541 U.S. at 916, 926
(Friendship is grounds for recusal where the
personal fortune of the friend is at issue. As it
assuredly is when friends are sued personally.)/see
also Liljeberg v. Health Servs. Acqusition Corp. 486
46

U.S. 847, 866 (1988) (recognizing nondisclosure is a
“factD that might reasonably cause an objective
observer to question [a judge’s] impartiality” and
finding it “inexcusable” and “remarkable” not to
provide “[a] full disclosure” to “completely remove0
any basis for questioning the judge’s impartiality”);
Commonwealth Coatings Corp. v. Continental Cas.
Co., 393 U.S. 145, 149-50 (1968) (an adjudicator’s
nondisclosure of facts that “might create an
impression of possible bias” give rise to “evident
partiality”).
Thus, when Petitioner filed March 2015
Motion to Recuse, Judge Manley was far from
“wholly disinterested” or “detached” from the matter
before him—he had a direct stake in the non­
disclosure of Petitioner’s recusal allegations.
At the final hearing, Petitioner also asserted
that Judge Manley has a stake in the outcome of the
final hearing since denying Genet’s liability claims
and approving conservators’ accounting, he created
an order that would be used to collaterally estop and
dismiss the civil RICO charges Genet instituted in
federal court in CV 18-115-BMM-JTJ, that was
pending upon appeal in the 9th circuit in 19-35730.
The service of Judge Manley’s November 26,
2019 Rule 11 ex parte order at the close of the
conservatorship that bans all communications with
the clerk of district court and orders the clerks not to
file any of Genet’s pleadings in any case in the
Twentieth Judicial District, reveals Judge Manley’s
interests in the estate beyond the conservatorship to
intentionally impede and block Genet’s participation
47

in the probate of her mother’s estate, In re Estate of
Anne Marie McCann, pending before a different
judge in the same district. The issuance of an ex
parte Rule 11 order, without notice or opportunity, to
intentionally block the administration of justice in
the probate proceeding pending before another
sitting judge, objectively, shows that Judge Manley
has a personal interest in the estate that far exceeds
the average judge and has actual bias against
Petitioner.
For these reasons, the Due Process Clause
warrants reversal of the Montana Supreme Court’s
judgment that failed to consider Petitioner’s oral
motion timely made at the final hearing.
B. The Failure to Disclose Disqualifying
Facts that Establish Unconstitutional Failure
to Recuse is a Structural Error that Requires
Vacation of all prior judgment and orders.
A Judge has a duty to disclose disqualifying
facts. Judicial silence as to disqualifying facts wholly
inappropriate and requires vacation of final
judgment. Liljeberg v. Health Services Acquistion
Corp., 486 U.S. at 858-61, 108 S.Ct. 2194. “[A]n
unconstitutional failure to recue constitutes
structural error” requiring reversal since “a due
process violation arising from the participation of an
interested judge is a defect “not amenable” to
harmless-errorD”. Williams v. Pennsylvania, 136 S.
Ct. at 1909.
As early as February 28, 2014, the date when
Judge Manley accepted assignment of the case and
48

nominated~Do\i% Wold and failed to disclose that
Doug Wold is his life-long personal friend of over 53
years (and father to the Judge’s personal judicial
assistant working on the case) and failed to recuse
himself from the proceeding to determine incapacity
and appointments (among contending McCann
nominees), Judge Manley had imposed his selfinterest into the case to have his nominee(s) who are
his undisclosed friend(s)1 appointed to take custody
of A.M.M. and title and possession to her multi­
million dollar estate to their substantial financial
benefit, without risk of personal liability and without
disclosure.
Because Judge Manley had imposed his self
interest in financially benefitting his friends without
personal liability, and failed to disclose and recuse,
the entire six year proceeding in DG 14-2/14-3 is
constitutionally defective, requiring vacation of all
orders and judgments in DG 14-2/14-3.
When Judge Manley, acting as adverse
witness, suborned false testimony in collusion with
Doug Wold at the 2015 Rule 11 hearing, to subvert
the integrity of the entire six year proceeding, he
engaged in fraud upon the court to fraudulent bar
Genet 1st and 14th Amendment rights to petition and
^e also had a stake in appointing Casey Emerson
another undisclosed friend, in which he had a 15 minute
ex parte communication with one day before the hearing
on capacity and appointments and failed to disclose it and
recuse, but rather accepted her unauthorized nomination
after the close of the evidentiary hearing, and appointed
her guardian.
49

participate in the proceeding since the date of the
June 24, 2015 Rule 11 Order.
This Court opened a nine year old judgment
because it found that a party in collusion with their
attorneys “deliberately planned and carefully
executed fraud amounted to a ‘wrong against the
institutions set up to protect and safeguard the
public.” Hazel-Atlas Glass Co. v. Hartford-Empire
Co., 322 U.S. 238, 246, 46 S.Ct. 997, 88 L.Ed. 1250
(1944); United States v. Sierra Pacific Industries,
Inc., 862 F.3d 1157, 1168 (9th Cir. 2017) (Suborning
false testimony by officers of the court may
constitute fraud upon the court.)
On this separate and existing ground, vacation
is warranted for all orders and judgments, including
and after, the June 2015 Rule 11 Order. Barrows v.
Hunton, 99 U.S. 80 (1878) (a judgment is a nullity if
“obtained through fraud”.).
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
C/“

Genet McCann
PO Box 160492
Big Sky, MT 59716
(406) 220-0352
2BigSky@gmail. com
March 5, 2021

Pro Se Petitioner
50

